                                     February 7, 2002



MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "The Department of
                          Energy's Strategy for Disposal of Plutonium" (ER-L-02-01)


INTRODUCTION AND OBJECTIVE

In September 2000, the United States and the Russian Federation entered into an
agreement stipulating that each country will irreversibly transform 34 metric tons of
weapons-grade plutonium into forms which could not be used for weapons purposes. To
meet the United States' commitment, the Department of Energy planned activities at its
Savannah River Site; specifically, to immobilize 8.4 metric tons of weapons-grade
plutonium and to convert 25.6 metric tons into nuclear reactor fuel. The plan called for
the design and construction of three major facilities at Savannah River: the Pit
Disassembly and Conversion Facility, the Plutonium Immobilization Plant, and the
Mixed Oxide Fuel Fabrication Facility. The Department's total estimated life cycle cost
for these facilities was about $6.1 billion, of which about $400 million has been
expended.

On January 23, 2002, you announced a significant change in the Department's strategy.
Under this new approach, the Department would meet its obligation under the agreement
by converting 34 metric tons of plutonium into mixed oxide fuel for use in nuclear
reactors. By choosing this method, the Department expects to save about $2 billion
compared to its previously announced approach. At the time the announcement was
made, we had also concluded, based on an audit which began in August 2001, that the
Department's plan to immobilize some plutonium and convert the rest to reactor fuel was
not the most cost-effective approach for disposing of surplus plutonium.

The purpose of this memorandum is to summarize the results of our analysis.

CONCLUSIONS AND OBSERVATIONS

We estimated that the Department's original approach – immobilizing 8.4 metric tons of
plutonium and converting 25.6 metric tons to fuel – would actually cost about $6.3
billion. In contrast, we found that converting all 34 metric tons to reactor fuel would cost
about $4.6 billion and immobilizing all the material would cost about $4.3 billion.
                                            -2-


Department officials originally believed that converting all of the plutonium into fuel was
not technically feasible and that the Russian Federation would reject a proposal to
immobilize the entire amount. However, the Department has since resolved technical
feasibility issues surrounding conversion.

The audit disclosed that the Department could save at least $1.7 billion by converting all
of the surplus plutonium into fuel and avoiding the cost of plutonium immobilization.
These findings closely parallel the rationale supporting your January 23rd announcement.
We have included the details of our cost estimate as an attachment.

Please let me know if there are any questions.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Administrator, National Nuclear Security Administration
                                                                                Attachment

             Detailed Analysis of Costs to Dispose of Surplus Plutonium


                      Original Plan: Immobilization and Conversion

The Department estimated the total cost to immobilize 13 metric tons and convert
33 metric tons, using the Pit Disassembly and Conversion Facility, Plutonium
Immobilization Plant, and Mixed Oxide Fuel Fabrication Facility, to be about
$6.1 billion. For comparison purposes, we adjusted the Department's estimate to reflect
the operations cost associated with immobilizing 8.4 metric tons and converting 25.6
metric tons. We also adjusted the Department's estimate to include certain costs that
were omitted in error. Specifically, the Department did not include about $262 million
for vitrification costs to be borne by the Materials Disposition Division and not directly
charged to the Plutonium Immobilization Plant Project. The Department also left out
costs associated with piping waste from the Mixed Oxide Fuel Fabrication Facility and
restarting the Plutonium Immobilization Plant Project after it was suspended. Thus, our
estimate for this approach was about $6.3 billion.

                             Conversion to Mixed Oxide Fuel

Our analysis showed that converting all 34 metric tons of plutonium into nuclear reactor
fuel using the Pit Disassembly and Conversion Facility and Mixed Oxide Fuel
Fabrication Facility would cost about $4.6 billion. The Department estimated the life
cycle cost to convert 33 metric tons, using the Pit Disassembly and Conversion Facility
and Mixed Oxide Fuel Fabrication Facility, to be about $4.4 billion. However, the
Department omitted about $91 million for piping waste from the Mixed Oxide Fuel
Fabrication Facility. We added the cost of piping and another $80 million for capital and
operating costs associated with converting plutonium that originally was to be
immobilized. Finally, we deducted $24 million for fuel credits associated with increasing
the Department's estimate from 33 to 34 metric tons.

                                      Immobilization

We concluded that immobilizing all 34 metric tons of surplus plutonium using the Pit
Disassembly and Conversion Facility and Plutonium Immobilization Plant would cost
about $4.3 billion. The Department estimated the life cycle cost to immobilize 13 metric
tons, using the Pit Disassembly and Conversion Facility and Plutonium Immobilization
Plant, to be about $3.7 billion. To this amount, we added the incremental cost of
processing an additional 21 metric tons in the Plutonium Immobilization Plant
($138 million), the cost to restart the Plutonium Immobilization Plant Project after it was
suspended ($12 million), and vitrification costs to be borne by the Materials Disposition
Division and not directly charged to the Plutonium Immobilization Plant Project
($391 million).
                                           Available Savings

The Department could save at least $1.7 billion1 by converting all 34 metric tons of
surplus plutonium into nuclear reactor fuel and avoiding the cost to build and operate the
Plutonium Immobilization Plant. The potential savings are the difference between the
estimated life cycle cost of the Pit Disassembly and Conversion Facility, Plutonium
Immobilization Plant, and Mixed Oxide Fuel Fabrication Facility, and the estimated life
cycle cost of the Pit Disassembly and Conversion Facility and Mixed Oxide Fuel
Fabrication Facility, assuming the Department converted all 34 metric tons. The
estimated savings were adjusted to account for costs already expended, which could not
be recovered. However, our estimate does not include the additional savings that would
result from eliminating the requirement to extract cesium from salt waste for use in the
immobilization process. The Department had a preliminary estimate of these costs,
totaling hundreds of millions of dollars, but management did not consider the estimate to
be reliable.

We found that immobilizing all 34 metric tons would also be more cost-effective than
immobilizing only 8.4 metric tons and converting 25.6 metric tons to fuel, if all of the
parties involved would agree to this approach. Under these conditions, the Department
could save as much as $1.9 billion. This savings estimate is dependent on the cost to
extract cesium from salt waste. Further, the cesium extraction operation has certain
health and safety risks which would have to be carefully considered in any evaluation of
this approach.

                                       Scope and Methodology

The audit was performed from August 8, 2001, to January 10, 2002, at the Savannah
River Site near Aiken, South Carolina; Duke, COGEMA, Stone and Webster in
Charlotte, North Carolina; and Department Headquarters in Washington, D.C. The audit
included a review of the Department's strategy and plans for disposing of surplus
plutonium.

To accomplish the audit objective, we reviewed the September 2000 Agreement between
the United States and the Russian Federation and documents pertaining to the facilities
the Department planned to construct to accomplish its strategy. We also held discussions
with Department, Westinghouse Savannah River Company, and Duke, COGEMA, Stone
and Webster officials regarding the proposed facilities.

The audit was performed in accordance with generally accepted Government auditing
standards for performance audits and included tests of internal controls and compliance
with laws and regulations to the extent necessary to satisfy the audit objective.
Accordingly, the assessment included reviews of Departmental and contractor policies,
procedures, and performance measures related to the management and control of the
Department's plan for disposing of plutonium. Because our review was limited, it would
not necessarily have disclosed all internal control deficiencies that may have existed at
the time of our audit. We did not rely upon computer-generated data for the purposes of
this audit.

1
  While our estimate is similar to the Department’s estimated savings of $2 billion, we did not specifically
review the Department’s calculation.
